PHIL WEISER
Attorney General

RALPH L. CARR
COLORADO JUDICIAL CENTER
1300 Broadway, 10th Floor
Denver, Colorado 80203
Phone (720) 508-6000

NATALIE HANLON LEH
Chief Deputy Attorney General
ERIC R. OLSON
Solicitor General
ERIC T. MEYER
Chief Operating Officer
.

STATE OF COLORADO
DEPARTMENT OF LAW

February 11, 2020

Scott Harris, Clerk
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
RE:

Office of the Attorney General

Colorado Department of State v. Micheal Baca, et al., No. 19-518
Chiafalo v. Washington, No. 19-465

Dear Mr. Harris:
Under Supreme Court Rule 37.3(a), Petitioner in No. 19-518, Colorado
Department of State, grants blanket consent to the filing of amicus curiae briefs in
support of either party or of neither party in these consolidated cases.

Sincerely,
FOR THE ATTORNEY GENERAL
/s/ Eric R. Olson
ERIC R. OLSON
Solicitor General
(720) 508-6548
Eric.Olson@coag.gov
Counsel of Record for Petitioner,
Colorado Department of State

cc:

L. Lawrence Lessig (Counsel for Respondents)

